APPENDIX

Case 3:17-cr-03938-JLS Document 52 Filed 08/29/18 PageID.326 Page 1 of 85

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

UNITED STATES OF AMERICA,
PLAINTIFF,
VS.
GILBERT CARRASCO,
DEFENDANT.

)
)
)
)
)
)
)

17-CR-3938-JLS
SAN DIEGO, CA
MAY 21, 2018
9:00 A.M.

TRANSCRIPT OF EVIDENTIARY HEARING
BEFORE THE HONORABLE JANIS L. SAMMARTINO
UNITED STATES DISTRICT JUDGE

APPEARANCES:
FOR THE GOVERNMENT:

OFFICE OF THE U. S. ATTORNEY
BY: DAVID P. FINN, ESQ.
880 FRONT STREET, RM. 6293
SAN DIEGO, CA 92101

FOR THE DEFENDANT:

LAW OFFICES OF VICTOR M. TORRES
BY: VICTOR M. TORRES, ESQ.
406 NINTH AVE., SUITE 311
SAN DIEGO, CA 92101

COURT REPORTER:

FRANK J. RANGUS, OCR
U. S. COURTHOUSE
333 W. BROADWAY, SUITE 420
SAN DIEGO, CA 92101
(619) 318-8590

PROCEEDINGS RECORDED BY ELECTRONIC STENOGRAPHY; TRANSCRIPT
PRODUCED BY COMPUTER.

1

Case 3:17-cr-03938-JLS Document 52 Filed 08/29/18 PageID.406 Page 81 of 85

81

1

NOT OTHER THINGS.

2

AND, YOU KNOW, I MEAN, HE'S MAKING A DETERMINATION, IF

3

SOMEBODY'S BEING SUSPICIOUS, BUT HE'S ALSO GOT A CANINE ALERT.

4

IT'S TWO GOOD REASONS TO SEND HIM TO SECONDARY.

5
6

THAT HAPPENS ALL THE TIME IN TESTIMONY.

SO I DO BELIEVE THIS IS A VALID REFERRAL, AND THERE'S
NOT BEEN ANY ARGUMENT TO SUGGEST OTHERWISE.

7

THE COURT:

OKAY.

8

ANYTHING FURTHER?

9

MR. TORRES:

THANK YOU.

I WOULD JUST ASK THE COURT FOR LEAVE TO

10

FILE A FURTHER BRIEFING ON THE MIRANDA ISSUE BEFORE TRIAL.

11

THINK THAT WAS PRETTY OBVIOUS FROM THE TESTIMONY AT THE END OF

12

WHAT HAPPENED WHEN HE JUST WALKED UP AND SAID, YOU KNOW,

13

INSTEAD OF ASKING ANY FURTHER IMMIGRATION QUESTIONS, JUST

14

ASKED ABOUT DRUGS.

15

TRIAL, BUT I THINK THAT IT DOES LEND A LITTLE BIT TO THE

16

INQUIRY IN TERMS OF WHAT WAS THE REAL REASON FOR THE

17

CHECKPOINT TO BE THERE, TO DETECT CRIME IN A GENERAL WAY OR TO

18

CONDUCT INSPECTIONS IN THE SPECIFICALLY NARROW FASHION THAT

19

THE SUPREME COURT HAS AUTHORIZED.

20

THE COURT:

I

SO I THINK THAT'S GOING TO BE AN ISSUE AT

OKAY.

SO YOU WANT TO SPIN OFF ANY ISSUE

21

RELATIVE TO WHEN THE AGENT WENT OVER AND SPOKE WITH YOUR

22

CLIENT IN THE SECONDARY AREA.

23

MR. TORRES:

24

THE COURT:

25

MR. FINN:

YES.
OKAY.
WE'LL RESPOND TO ANY BRIEFING, YOUR HONOR.

Case 3:17-cr-03938-JLS Document 52 Filed 08/29/18 PageID.407 Page 82 of 85

THE COURT:

1

OKAY.

82

BUT HOW ABOUT -- I THINK IT WOULD

2

BE BEST IF I JUST GO AHEAD AND RULE ON EVERYTHING ELSE THIS

3

MORNING, AND THAT ISSUE CAN REMAIN.
LET'S START WITH THE CHECKPOINT ISSUE.

4

YOU HAD

5

PRESENTED THE COURT WITH A TRANSCRIPT FROM MY CASE,

6

BECERRA-PEREZ, SO I'M QUITE FAMILIAR WITH IT.

7

INDICATED THAT EVERYTHING IN THAT TRANSCRIPT IS CURRENT AS OF

8

THE DATE OF MR. CARRASCO'S ARREST AND THAT THE TESTIMONY ON

9

THE 94 CHECKPOINT WOULD BE THE SAME AS THE 111 CHECKPOINT, AND

YOU'VE

10

WITH THAT THERE'S REALLY NO REASON FOR THIS COURT TO CHANGE

11

ITS RULING, AND I THINK THE BORDER PATROL'S BORDER SECURITY

12

MISSION IS WHAT PREVAILS ON THE 111 CHECKPOINT, AS IT DID ON

13

THE 94, AND THAT IT'S CONSTITUTIONAL AS SET UP.

14

CONCERNS ABOUT THAT.

SO I HAVE NO

WITH REGARD TO THE CANINE ISSUE AND THE STOP IN

15
16

GENERAL IN THIS CASE, I ALSO THINK THAT THAT IS SUFFICIENT AND

17

MEETS ALL CONSTITUTIONAL TESTS, FOR THESE REASONS.

18

BOTH AGENTS' TESTIMONY TO BE CREDIBLE, AND I HAVE THE CANINE,

19

AMON, WHO IS CERTIFIED, HAS WORKED WITH THIS AGENT FOR TWO

20

YEARS, AND IS CERTIFIED BOTH IN DETECTING CONCEALED HUMANS AND

21

DRUGS.

22

I FIND

SO I START WITH THAT.
I ALSO NOTE THAT THE CANINE ALERTED TO THE DRIVER'S

23

SIDE IN A SECOND SWEEP AROUND.

I HAVE A PRIMARY AGENT WHO HAS

24

ALREADY ENGAGED WITH THE VEHICLE, WHO IS ASKING FOR

25

INFORMATION, AND WHO HAS A CONCERN ON THE PASSENGER'S, THE

Case 3:17-cr-03938-JLS Document 52 Filed 08/29/18 PageID.408 Page 83 of 85

83

1

FRONT PASSENGER IN THE VEHICLE BASED ON OBSERVATIONS (1) THAT,

2

FOR REASONS THAT I'M GOING TO ARTICULATE, HE WAS CONCERNED

3

THAT HE WASN'T GETTING AN HONEST ANSWER WHEN THE INDIVIDUAL

4

INDICATED HE WAS BORN IN TEXAS.

5

HIM, MR. CARRASCO DIDN'T LOOK AT HIM AND SEEMED, SEEMED, AND

6

THESE ARE THE COURT'S WORDS BASED ON THE TESTIMONY, SOMEWHAT

7

OVERLY ENGAGED WITH DRINKING HIS WATER AND NOT LOOKING AT THE

8

AGENT.

9

WAS ALREADY GOING TO REFER TO SECONDARY JUST TO DOUBLECHECK ON

THE INDIVIDUAL DIDN'T LOOK AT

AND SO BASED ON THE TESTIMONY THIS MORNING, THE AGENT

10

WHAT THIS INDIVIDUAL WAS REPRESENTING, BUT AT THE SAME TIME

11

AGENT LOZANO WANTED THIS CAR REFERRED BECAUSE OF THE ALERT ON

12

THE DRIVER'S SIDE.

13

SO I DON'T HAVE ANY CONCERNS ABOUT THE STOP AND THE

14

REFERRAL, AND AS I'VE ALREADY INDICATED, THE CHECKPOINT WAS

15

REASONABLE.

16

BEHALF AND QUESTIONS OR COMMENTS THIS MORNING, IS THE CONCERN

17

ABOUT THE INQUIRY THAT OCCURRED, APPARENTLY, AFTER THE CAR WAS

18

EMPTIED OF INDIVIDUALS AND MR. CARRASCO WAS ENGAGED.

19

NOT GOING TO -- I THINK THE SEARCH IN THIS CASE WAS JUSTIFIED

20

BASED ON WHAT WE'VE HEARD THIS MORNING.

21

WHAT I WILL LEAVE OPEN, BASED ON MR. TORRES'

SO I'M

SO I'M PREPARED TO PROCEED ON THAT BASIS, BUT LEAVING

22

OPEN, MR. TORRES AND MR. FINN, THE MORE SPECIFIC ISSUE ON THE

23

MIRANDA STATEMENTS.

24

THE STOP WAS APPROPRIATE UNDER ALL THE AUTHORITY THAT THE

25

COURT IS AWARE OF.

BUT THE CHECKPOINT IS A VALID CHECKPOINT.

United States v. Carrasco, --- Fed.Appx. ---- (2020)

immigrants, rather than to advance a general
interest in crime control; the court reviewed
extensive testimony and agency documents
that consistently emphasized that the primary
purpose of the checkpoint was to restrict the
routes of egress from the border area and
thereby create deterrence to the initial illegal
entry. Comprehensive Drug Abuse Prevention
and Control Act of 1970 § 401, 21 U.S.C.A. §
841(a)(1).

2020 WL 2466378
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Gilbert CARRASCO, Defendant-Appellant.

[2]

Court of Appeals would grant defendant's
unopposed motion, in proceeding in which
defendant challenged the constitutionality of a
permanent Border Patrol checkpoint, to take
judicial notice of transcripts of testimony and
the district court’s ruling in a case addressing a
nearby permanent Border Patrol checkpoint, a
printout of a page from the U.S. Customs and
Border Patrol website, and the oral testimony
of the Border Patrol Chief; each was a proper
subject of judicial notice. Fed. R. Evid. 201(b).

No. 18-50417
|
Submitted May 8, 2020 * Pasadena, California
|
FILED May 13, 2020
Synopsis
Background: Defendant was convicted, following a jury trial
in the United States District Court for the Southern District of
California, Janis L. Sammartino, J., of possession with intent
to distribute methamphetamine. He appealed.
[3]

[1] District Court did not clearly err in upholding the
constitutionality of a Border Patrol checkpoint; and
[2] evidence was sufficient to support conviction.
Affirmed.

West Headnotes (5)
Criminal Law
District court did not clearly err, in
prosecution for possession with intent to
distribute methamphetamine, in upholding the
constitutionality of a Border Patrol checkpoint
by determining that the primary purpose of
the checkpoint was to intercept undocumented

Controlled Substances
Evidence was sufficient to support conviction
for possession with intent to distribute
methamphetamine; a rational juror was entitled
to find beyond a reasonable doubt that the
packages found taped to defendant's leg at a
checkpoint tested positive for methamphetamine
and that the methamphetamine weighed more
than 500 grams, before trial, a Drug Enforcement
Agency (DEA) chemist again tested and weighed
the substance and determined it contained
843 grams of methamphetamine, and although
defendant argued that the packages seized at the
checkpoint were not the same as those analyzed
in the DEA lab, on the record as a whole there
was sufficient other evidence to fill any gap in the
chain of custody. Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 401, 21
U.S.C.A. § 841(a)(1).

Holdings: The Court of Appeals held that:

[1]

Criminal Law

[4]

Criminal Law

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Carrasco, --- Fed.Appx. ---- (2020)

Defendant’s detention in secondary inspection at
a fixed Border Patrol checkpoint did not violate
the Fourth Amendment; the primary inspection
agent described defendant’s responses as very
brief, “like he didn’t want to talk,” and his overall
demeanor as “unusual,” and a drug-detection dog
twice alerted to the scent of contraband. U.S.
Const. Amend. 4.

[5]

Criminal Law
Since the evidence of defendant's guilt was
overwhelming in his prosecution for possession
with intent to distribute methamphetamine,
Court of Appeals was not required to determine
whether the statements he made in secondary
inspection at a Border Patrol checkpoint were
admitted in violation of Miranda; a Border
Patrol agent testified that after defendant was
arrested and given his Miranda warnings,
he admitted that he was hired to transport
drugs, and the packages removed from his legs
were twice tested and determined to contain
methamphetamine. Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 401, 21
U.S.C.A. § 841(a)(1).

*1 Following a jury trial, Gilbert Carrasco was convicted
of one count of possession with intent to distribute over
500 grams of methamphetamine in violation of 21 U.S.C.
§ 841(a)(1). On appeal, he challenges the constitutionality
of the permanent Border Patrol checkpoint, the sufficiency
of evidence supporting his conviction, and the admission of
statements he made in secondary inspection. We affirm.
[1] 1. The district court did not err in upholding
the constitutionality of the Highway 111 Border Patrol
checkpoint. Ordinarily, “a search or seizure is unreasonable
unless it rests on individualized suspicion of wrongdoing.”
United States v. Soto-Zuniga, 837 F.3d 992, 998–99 (9th Cir.
2016). However, individualized suspicion is not necessary
“where a program is designed to serve ‘special needs, beyond
the normal need for law enforcement.’ ” United States v.
Fraire, 575 F.3d 929, 931–32 (9th Cir. 2009) (quoting City
of Indianapolis v. Edmond, 531 U.S. 32, 37, 121 S.Ct. 447,
148 L.Ed.2d 333 (2000)). A permanent checkpoint created for
the primary purpose of immigration control serves a special
need. See Soto-Zuniga, 837 F.3d at 999 (citing United States
v. Martinez-Fuerte, 428 U.S. 543, 556, 96 S.Ct. 3074, 49
L.Ed.2d 1116 (1976)). A district court’s determination of the
primary purpose of a checkpoint is reviewed for clear error.
See United States v. Faulkner, 450 F.3d 466, 470 (9th Cir.
2006).
[2] Here, the district court reviewed extensive testimony

Attorneys and Law Firms
David P. Finn, Benjamin Holley, Nicole Ries Fox, Daniel Earl
Zipp, Assistant U.S. Attorneys, Office of the US Attorney,
San Diego, CA, for Plaintiff - Appellee
Todd William Burns, Attorney, Burns & Cohan, Attorneys at
Law, San Diego, CA, for Defendant - Appellant
Appeal from the United States District Court for the Southern
District of California, Janis L. Sammartino, District Judge,
Presiding, D.C. No. 3:17-cr-03938-JLS-1
Before: MURGUIA and CHRISTEN, Circuit Judges, and
STEIN, ** District Judge.

MEMORANDUM ***

and agency documents 1 that consistently emphasized that
the primary purpose of the Highway 111 Border Patrol
checkpoint was “to restrict the routes of egress from the
border area and thereby create deterrence to the initial illegal
entry.” Although the agency may have had other goals in
addition to its central mission of interdicting undocumented
immigrants, we cannot conclude that the district court clearly
erred in determining that the primary purpose of the Highway
111 checkpoint was to intercept undocumented immigrants,
rather than to advance a general interest in crime control.
[3] 2. There was sufficient evidence to convict Carrasco. In
considering a challenge to the sufficiency of the evidence,
we “construe the evidence ‘in the light most favorable to the
prosecution,’ and only then determine whether ‘any rational
trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.’ ” United States v. Nevils,
598 F.3d 1158, 1161 (9th Cir. 2010) (en banc) (quoting
Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979)). Although we review de novo, “our
evaluation remains deferential and accords respect to the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Carrasco, --- Fed.Appx. ---- (2020)

threshold was undoubtedly met here. The primary inspection
agent described Carrasco’s responses as “very brief ... like he
didn’t want to talk” and his overall demeanor as “unusual.”
Furthermore, a drug-detection dog twice alerted to the scent of
contraband. Accordingly, Carrasco’s referral and subsequent
detention in secondary inspection was not unlawful.

jury’s role ‘as weigher of the evidence.’ ” United States v.
Moe, 781 F.3d 1120, 1124 (9th Cir. 2015) (quoting Jackson,
443 U.S. at 319, 99 S.Ct. 2781).
*2 Viewing the evidence in the light most favorable
to the prosecution, a rational juror was entitled to find
beyond a reasonable doubt that the packages contained
methamphetamine and that the methamphetamine weighed
more than 500 grams. Agents removed the substance taped
to Carrasco’s legs and found that it tested positive for
methamphetamine. Before trial, a Drug Enforcement Agency
(DEA) chemist again tested and weighed the substance and
determined it contained 843 grams of methamphetamine.
Although Carrasco argues that the packages seized at the
checkpoint were not the same as those analyzed in the DEA
lab, “[o]n the record as a whole ..., there was sufficient other
evidence to fill any gap in the chain of custody[.]” United
States v. Solorio, 669 F.3d 943, 956 (9th Cir. 2012).
[4] 3. Carrasco’s detention in secondary inspection did not
violate the Fourth Amendment. “At fixed Border Patrol
checkpoints within the nation’s interior, the government can
send a motorist for a brief secondary inspection upon ‘a
minimal showing of suspicion’....” United States v. Thomas,
726 F.3d 1086, 1095 (9th Cir. 2013) (quoting United States
v. Taylor, 934 F.2d 218, 220–21 (9th Cir. 1991)). This low

[5] 4. We need not determine whether the statements
Carrasco made in secondary inspection were admitted
in violation of Miranda, because “[e]ven without the
statements ..., the evidence of guilt was overwhelming.”
United States v. Butler, 249 F.3d 1094, 1101 (9th Cir. 2001). A
Border Patrol agent testified that after Carrasco was arrested
and given his Miranda warnings, Carrasco admitted that he
was hired to transport drugs. And, as already noted, the
packages removed from Carrasco’s legs were twice tested
and determined to contain methamphetamine. Accordingly,
based on the compelling other evidence of guilt, any error
was “harmless beyond a reasonable doubt.” United States v.
Polanco, 93 F.3d 555, 562–63 (9th Cir. 1996).
AFFIRMED.
All Citations
--- Fed.Appx. ----, 2020 WL 2466378

Footnotes

*
**
***
1

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).
The Honorable Sidney H. Stein, United States District Judge for the Southern District of New York, sitting by designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.
Carrasco filed an unopposed motion to take judicial notice (Dkt. 19) of transcripts of testimony and the district court’s
ruling in a case addressing a nearby permanent Border Patrol checkpoint, a printout of a page from the U.S. Customs
and Border Patrol website, and the oral testimony of Border Patrol Chief Mark Morgan. Each is a proper subject of judicial
notice. See Fed. R. Evid. 201(b). We grant the motion.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1327 Page 1 of 11

1

THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

2
3

HONORABLE JANIS L. SAMMARTINO
UNITED STATES DISTRICT JUDGE PRESIDING

4
_______________________________________________________
5
6
7
8
9
10
11

U N I T E D S T A T E S O F A M E R I C A,

)
)
N O . 1 7 - C R - 0 4 7 8- J L S
P L A I N T I F F,
)
N O . 1 7 - C R - 0 8 2 7- J L S
)
VS.
)
STATUS HEARING
)
E L O D I A B E C E R R A- P E R E Z A N D
)
MARCH 9, 2018
A L I C I A L E G A S P I,
)
)
D E F E N D A N T S.
)
_______________________________________________________

12
A P P E A R A N C E S:
13
14

F O R T H E P L A I N T I F F:

BENJAMIN BISH
U . S . A T T O R N E Y' S O F F I C E
S O U T H E R N D I S T. O F C A L I F O R N I A
CRIMINAL DIVISION
8 8 0 F R O N T S T R E E T, S U I T E 6 2 9 3
S A N D I E G O, C A
92101

F O R T H E D E F E N D A N T:
B E C E R R A- P E R E Z

JOHN C. LEMON
L A W O F F I C E S O F J O H N C . L E M O N, A P C
1 3 5 0 C O L U M B I A S T R E E T, S U I T E 6 0 0
S A N D I E G O, C A
92101

F O R T H E D E F E N D A N T:
LEGASPI

HOLLY A. SULLIVAN
LAW OFFICE OF HOLLY A. SULLIVAN
1 1 0 W E S T C S T R E E T, S U I T E 2 1 0 5
S A N D I E G O, C A 9 2 1 0 1

T H E C O U R T R E P O R T E R:

G A Y L E W A K E F I E L D, R P R , C R R

15
16
17
18
19
20
21
22
23
24
25

1

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1328 Page 2 of 11

1

MARCH 9, 2018

2

AFTERNOON SESSION

3

T H E C L E R K:

N U M B E R T E N O N T H E C A L E N D A R, 1 7 - C R - 4 7 8 ,

4

U N I T E D S T A T E S V S . E L O D I A B E C E R R A- P E R E Z A N D A L I C I A L E G A S P I, F O R

5

S T A T U S.

6
7

M R . L E M O N:

M S . P E R E Z, W H O H A S W A I V E D H E R P R E S E N C E.

8
9
10

M S . S U L L I V A N:

13

G O O D A F T E R N O O N, Y O U R H O N O R, H O L L Y

S U L L I V A N O N B E H A L F M S . L E G A S P I, W H O H A S A L S O W A I V E D H E R
P R E S E N C E.

11
12

G O O D A F T E R N O O N, Y O U R H O N O R, J O H N L E M O N F O R

M R . B I S H:

B E N J A M I N B I S H F O R T H E U N I T E D S T A T E S, Y O U R

H O N O R.
T H E C O U R T:

WE ARE HERE TODAY FOR A STATUS HEARING

14

FOLLOWING THE EVIDENTIARY HEARING THAT WE HELD ON

15

N O V E M B E R 2 7 T H , 2 0 1 7.

16

REVIEW THE TRANSCRIPT OF THAT HEARING AND THE WRITTEN CLOSING

17

A R G U M E N T S S U B M I T T E D B Y E A C H P A R T Y.

18

M A T T E R A N D I ' M P R E P A R E D T O R U L E, P R O V I D E D I T ' S D E E M E D

19

S U B M I T T E D.

20
21

THE COURT HAS HAD AN OPPORTUNITY TO

I HAVE CONSIDERED THE

Y O U D I D P R O V I D E Y O U R A R G U M E N T I N W R I T T E N F O R M, S O I ' M
A S S U M I N G Y O U S U B M I T, M R . B I S H.

22

M R . B I S H:

Y E S , Y O U R H O N O R.

23

T H E C O U R T:

M R . L E M O N.

24

M R . L E M O N:

Y E S , Y O U R H O N O R.

25

M S . S U L L I V A N:

Y E S , Y O U R H O N O R.

2

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1329 Page 3 of 11

1

T H E C O U R T:

A S T H E P A R T I E S A C K N O W L E D G E, T H E R E' S A

2

TWO-STEP ANALYSIS APPLICABLE TO FOURTH AMENDMENT CHECKPOINT

3

C A S E S.

4

PURPOSE OF THE CHECKPOINT WAS TO ADVANCE THE GENERAL INTEREST

5

I N C R I M E C O N T R O L.

6

T H E F O U R T H A M E N D M E N T, C I T I N G T O U . S . V S . F R A I R E.

7

F I R S T, T H E C O U R T M U S T D E T E R M I N E W H E T H E R T H E P R I M A R Y

IF SO, THEN THE STOP IS PER SE INVALID UNDER

DEFENDANTS ARGUE THAT THE PRIMARY PURPOSE OF THE 94

8

C H E C K P O I N T I S G E N E R A L C R I M E C O N T R O L, A S O P P O S E D T O T H E

9

IMMIGRATION SPECIAL NEED SANCTIONED BY THE SUPREME COURT IN

10

U N I T E D S T A T E S V S . M A R T I N E Z- F U E R T E .

DEFENDANTS POINT TO THE

11

F A C T T H A T T H E N U M B E R O F I M M I G R A T I O N- R E L A T E D A R R E S T S A T T H E

12

CHECKPOINT OVER THE LAST FOUR YEARS IS LESS THAN HALF OF THE

13

T O T A L A R R E S T S.

14

A G E N C Y D O C U M E N T S I N D I C A T I N G T H A T, A F T E R T H E E V E N T S O F S E P T E M B E R

15

T H E 1 1 T H , 2 0 0 1, T H E P R I O R I T Y M I S S I O N O F T H E B O R D E R P A T R O L

16

BECAME THE PREVENTION OF TERRORISTS AND TERRORIST WEAPONS FROM

17

E N T E R I N G T H E U N I T E D S T A T E S.

DEFENDANTS ALSO POINT TO VARIOUS BORDER PATROL

18

F I N A L L Y, D E F E N D A N T S N O T E T H A T T H E R E S O U R C E S A V A I L A B L E

19

AT THE CHECKPOINTS AND TRAINING PROVIDED TO CHECKPOINT AGENTS

20

SUGGEST THAT THE PRIMARY FOCUS OF THE CHECKPOINTS IS GENERAL

21

C R I M E D E T E R R E N C E.

22

I N T E R D I C T I O N, T H E Y O F T E N U T I L I Z E C A N I N E S W I T H T H E A B I L I T Y T O

23

D E T E C T D R U G S A N D E X P L O S I V E S, A N D C H E C K P O I N T S A R E E Q U I P P E D W I T H

24

R E S O U R C E S N O T U S E F U L F O R I N T E R C E P TI N G I L L E G A L A L I E N S, S U C H A S

25

R A D I A T I O N D E T E C T O R S, D E N S I T Y M E T E R S, N A R C O T I C T E S T I N G K I T S, A N D

F O R E X A M P L E, A G E N T S A R E T R A I N E D I N D R U G

3

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1330 Page 4 of 11

1
2

S C A L E S.
THE COURT HAS CAREFULLY EXAMINED THE CHECKPOINT

3

DISCOVERY MATERIALS SUBMITTED UNDER SEAL IN SUPPORT OF

4

D E F E N D A N T S' P O S I T I O N, B U T I S N O T P E R S U A D E D T H A T T H E H I G H W A Y 9 4

5

IMMIGRATION CHECKPOINT IS BEING USED TO ADVANCE THE GENERAL

6

INTEREST IN CRIME CONTROL OR AS A SUBTERFUGE TO CONDUCT

7

SEARCHES BEYOND THE SCOPE OF ITS DEFINED PURPOSE TO RESTRICT

8

THE ROUTES OF EGRESS FROM THE BORDER AREA AND THEREBY CREATE

9

D E T E R R E N C E T O T H E I N I T I A L I L L E G A L E N T R Y.

10

T O T H E C O N T R A R Y, A L L O F T H E C H E C K P O I N T D I S C O V E R Y

11

MATERIALS THE COURT HAS REVIEWED APPEARS CONSISTENT WITH THIS

12

P U R P O S E, A S F A R A S I N T E R I O R C H E C K P O I N T S A R E C O N C E R N E D.

13

ALTHOUGH THE BROADER MISSION OF THE U.S. BORDER PATROL MAY

14

INCLUDE THE DETECTION AND APPREHENSION OF TERRORISTS AND THEIR

15

W E A P O N S, I N A D D I T I O N T O T H E T R A D I T I O N A L M I S S I O N O F P R E V E N T I N G

16

ILLEGAL ALIENS AND CONTRABAND SMUGGLERS FROM ENTERING THE

17

U N I T E D S T A T E S, A L L O F T H E E V I D E N C E B E F O R E T H E C O U R T S U G G E S T S

18

THAT THE INTERNAL CHECKPOINT COMPONENT OF THE OVERALL BORDER

19

PATROL MISSION IS FOCUSED UPON DETERRENCE OF ILLEGAL

20

I M M I G R A T I O N.

21

THE STATISTICS CITED BY DEFENDANT LEGASPI ARE NOT

22

D I S P O S I T I V E.

AS THE GOVERNMENT DETAILS IN ITS CLOSING ARGUMENT

23

B R I E F, A C H E C K P O I N T M U S T B E A N A L Y Z E D A T T H E L E V E L O F I T S

24

D E S I G N, A N D N O T T H E R E L A T I V E N U M B E R S O F A R R E S T S, I N E V A L U A T I N G

25

I T S P R I M A R Y P U R P O S E.

I N A D D I T I O N, T H E S T A T I S T I C S C I T E D B Y

4

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1331 Page 5 of 11

1

DEFENDANT DO NOT CAPTURE THE DETERRENT EFFECT OF THE

2

C H E C K P O I N T.

3

F I N A L L Y, T H E S T A T I S T I C S C I T E D A R E S O M E W H A T D E C E P T I V E A S

4

THEY FOCUS ONLY ON THE CHECKPOINT ITSELF AND NOT THE

5

S U R R O U N D I N G A R E A.

6

BORDER PATROL CHECKPOINTS ARE JUST ONE LAYER IN THE BORDER

7

P A T R O L' S E N F O R C E M E N T S T R A T E G Y.

8

I N T E R D I C T I O N U N I T S, O P E R A T E I N T H E I M M E D I A T E A R E A O F T H E

9

C H E C K P O I N T.

BORDER PATROL AGENT YAMASAKI EXPLAINED THAT

O T H E R L A Y E R S, S U C H A S M O B I L E

WHEN ONE CONSIDERS THE ARREST STATISTICS FOR THE

10

I M M E D I A T E C H E C K P O I N T A R E A, T H E V A S T M A J O R I T Y A R E F O R

11

I M M I G R A T I O N- R E L A T E D O F F E N S E S.

12

F I N A L L Y, T H E C O U R T I S N O T P E R S U A D E D T H A T T H E R E S O U R C E S

13

AND TRAINING AVAILABLE TO AGENTS AT CHECKPOINTS TO DEAL WITH

14

NON-IMMIGRATION RELATED CRIMINAL ACTIVITY ALTERS THE PRIMARY

15

P U R P O S E O F T H E C H E C K P O I N T.

16

T H E E V I D E N C E S U P P O R T S, A G E N T S A R E T R A I N E D T H A T T H E P U R P O S E O F

17

THE CHECKPOINTS IS THE ENFORCEMENT OF IMMIGRATION LAWS WITH

18

M I N I M A L I N C O N V E N I E N C E T O T H E T R A V E L I N G P U B L I C.

19

PATROL AGENTS ARE LAW ENFORCEMENT AGENTS WITH THE AUTHORITY TO

20

MAKE ARRESTS FOR ANY FELONY OFFENSE WHILE PERFORMING THEIR

21

D U T I E S.

22

THAT THEY SHOULD NOT ALSO BE PROVIDED WITH TRAINING AND

23

RESOURCES RELATED TO OTHER CRIMINAL OFFENSES THEY MAY ENCOUNTER

24

W H I L E P E R F O R M I N G T H E I R I M M I G R A T I O N D U T I E S.

25

AS THE GOVERNMENT POINTS OUT, AND

H O W E V E R, B O R D E R

T H U S, I T I S U N R E A S O N A B L E A N D I R R E S P O N S I B L E T O E X P E C T

BECAUSE THE EVIDENCE BEFORE THE COURT COMPELS THE

5

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1332 Page 6 of 11

1

CONCLUSION THAT THE PRIMARY PURPOSE OF THE 94 CHECKPOINT IS THE

2

D E T E R R E N C E O F I L L E G A L I M M I G R A T I O N, A N D N O T T O A D V A N C E T H E

3

G E N E R A L I N T E R E S T I N C R I M E C O N T R O L, T H E C O U R T M U S T N E X T J U D G E

4

T H E C H E C K P O I N T' S R E A S O N A B L E N E S S, H E N C E, I T S C O N S T I T U T I O N A L I T Y,

5

O N T H E B A S I S O F T H E I N D I V I D U A L C I R C U M S T A N C E S.

6

CONSIDERATION OF THE GRAVITY OF THE PUBLIC CONCERNS SERVED BY

7

T H E S E I Z U R E, T H E D E G R E E T O W H I C H T H E S E I Z U R E A D V A N C E S T H E

8

P U B L I C I N T E R E S T, A N D T H E S E V E R I T Y O F T H E I N T E R F E R E N C E W I T H

9

I N D I V I D U A L L I B E R T Y.

10

THIS REQUIRES

U . S . V . F R A I R E.

H E R E, C O N S I D E R A T I O N O F T H E S E F A C T O R S D E M O N S T R A T E S T H A T

11

T H E H I G H W A Y 9 4 C H E C K P O I N T I S R E A S O N A B L E.

C L E A R L Y, T H E G R A V I T Y

12

O F T H E P U B L I C C O N C E R N S E R V E D B Y T H E C H E C K P O I N T I S S I G N I F I C A N T.

13

ILLEGAL IMMIGRATION WAS A FORMIDABLE CONCERN 40 YEARS AGO WHEN

14

THE SUPREME COURT UPHELD THE USE OF IMMIGRATION CHECKPOINTS IN

15

M A R T I N E Z- F U E R T E, A N D I T C O N T I N U E S T O B E A S I G N I F I C A N T C O N C E R N

16

T O D A Y.

17

THE 94 CHECKPOINT IS LOCATED IN A RURAL AREA NEAR THE

18

U . S . / M E X I C O B O R D E R, I M M E D I A T E L Y W E S T O F A M O U N T A I N O U S A R E A I N

19

SAN DIEGO COUNTY THAT IS DIFFICULT FOR BORDER AGENTS TO PATROL

20

A N D T H R O U G H W H I C H I L L E G A L E N T R I E S A R E F R E Q U E N T.

21

DEGREE TO WHICH THE CHECKPOINT ADVANCES THE PUBLIC INTEREST IS

22

A L S O S I G N I F I C A N T.

23

T H U S, T H E

E V E N R E L Y I N G S O L E L Y O N I M M I G R A T I O N- R E L A T E D A R R E S T

24

S T A T I S T I C S F R O M T H E I M M E D I A T E C H E C K P O I N T A R E A, W H I C H D O N O T

25

FACTOR IN ANY DETERRENT EFFECT -- EVEN RELYING SOLELY ON THE

6

Case 3:17-cr-00478-JLS Document 68 Filed 03/20/18 PageID.1333 Page 7 of 11

1

I M M I G R A T I O N- R E L A T E D A R R E S T S T A T I S T I C S F R O M T H E I M M E D I A T E

2

C H E C K P O I N T A R E A, W H I C H D O N O T F A C T O R I N A N Y D E T E R R E N T E F F E C T O F

3

T H E C H E C K P O I N T S Y S T E M, T H E A P P R E H E N S I O N S A R E S U B S T A N T I A L.

4

F I N A L L Y, T H E S E V E R I T Y O F T H E I N T E R F E R E N C E W I T H

5

INDIVIDUAL LIBERTY IS MINIMIZED BY THE FACT THAT THE

6

C H E C K P O I N T S A R E C L E A R L Y I D E N T I F I E D U P O N A P P R O A C H, M A N Y

7

TRAVELERS ARE WAVED THROUGH WITHOUT ANY INSPECTION AT ALL, AND,

8

FOR THOSE WHO ARE NOT, THE TYPICAL INSPECTION IS LIMITED TO

9

B R I E F Q U E S T I O N I N G A B O U T I M M I G R A T I O N S T A T U S.

THE COURT FINDS

10

THE HIGHWAY 94 CHECKPOINT TO BE CONSISTENT WITH THOSE UPHELD IN

11

M A R T I N E Z- F U E R T E, A N D T H U S F I N D S I T T O B E R E A S O N A B L E U N D E R T H E

12

F O U R T H A M E N D M E N T.

13

F O R T H E S E R E A S O N S, D E F E N D A N T B E C E R R A- P E R E Z' S A N D

14

D E F E N D A N T L E G A S P I' S M O T I O N S T O S U P P R E S S E V I D E N C E A R E D E N I E D.

15

D E F E N D A N T M I R A N D A' S M O T I O N T O S U P P R E S S I S D E N I E D I N P A R T A S T O

16

T H E C H E C K P O I N T C O N S T I T U T I O N A L I T Y I S S U E, A N D T H E B A L A N C E O F T H E

17

M O T I O N - - O F H E R M O T I O N I S S E T F O R A N E V I D E N T I A R Y H E A R I N G, A N D

18

W E H A V E A L R E A D Y S E T T H A T D A T E A S M A R C H 2 8 T H , 2 0 1 8.

19

T H E C O U R T' S R U L I N G O N T H O S E M O T I O N S.

S O T H A T' S

20

W O U L D Y O U L I K E M E T O S E T A S T A T U S I N B E C E R R A- P E R E Z?

21

M R . L E M O N:

22
23

T H A T' S F I N E, Y O U R H O N O R, W H A T E V E R I S

C O N V E N I E N T F O R T H E C O U R T.
M S . S U L L I V A N:

WE ALSO WERE PREPARED TO HAVE A TRIAL

24

D A T E S E T T O D A Y, I F T H E C O U R T W O U L D P R E F E R T H A T, F O R

25

B E C E R R A- P E R E Z.

7

